          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection
           Review of the 

           Department’s

             Use of Its 

          Defense Export 

        Licensing Watchlist 

               in the 

        Acquisition Process

   Report Number SIA-I-08-05, September 2008




                            IMPORTANT NOTICE
This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

                        SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 



FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 



ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 





                          SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED





                                        KEY JUDGMENTS

            • 	 The Department’s Watchlist for defense export licensing was created to assist
                licensing ofﬁcers and compliance specialists when reviewing a party’s applica-
                tion for an arms export license, not for the purpose of vetting prospective
                contractors as part of the acquisition process.

            • 	 Ofﬁcials from the Department of State’s (Department) Directorate of
                Defense Controls (PM/DDTC) have been meeting with Department of
                Defenses (DOD) acquisition experts to develop contract clause language that
                would allow the use of Watchlist information in the acquisition process.

            • 	 Ofﬁce of Acquisitions Management (A/LM/AQM) ofﬁcials acted judi-
                ciously in identifying and ﬂagging the poor performance of AEY, Inc., and in
                ceasing activity with the company when it was deemed necessary.




OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   1 .


                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





2 . OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008


                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




          OBJECTIVES, SCOPE, AND METHODOLOGY


          The objective of this review was to determine the Department’s use of its
      defense export licensing Watchlist in the acquisition process, with speciﬁc focus on
      AEY, Inc. Reportedly, AEY was put on the Watchlist as early as April 2006, and was
      subsequently awarded four contracts by the Department, one in December 2006, two
      in February 2007, and one in June 2007.

          This review was conducted through interviews with principals from the Bureau
      of Political-Military Affairs (PM) and the Bureau of Administration (A). The ﬁnd-
      ings and conclusions of this review were based upon these meetings; reviews of
      open source documents pertaining to AEY; the Arms Export Control Act (AECA),1
      as amended; testimony given to the House of Representatives, Committee on Over-
      sight and Government Reform on June 24, 2008; and documents provided to OIG
      by A/LM/AQM and PM/DDTC.

            This review was conducted between June 24 and July 10, 2008,(b) (6)
      (b) (6)(b) (6)




      1
       22 U.S.C. § 2778



OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   3 .


                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED




4 . OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008


                               SENSITIVE BUT UNCLASSIFIED

                                SENSITIVE BUT UNCLASSIFIED





                                            BACKGROUND

          In 1968, Congress passed the AECA, which requires, inter alia, that companies
      engaging in the brokering, exporting, or manufacturing of weapons and ammunition
      be registered, and obtain a license for each transaction. This authority is given to the
      President, which is delegated to the Secretary, the Under Secretary for Arms Control
      and International Security Affairs, and then to PM/DDTC. PM/DDTC ofﬁcials
      may disapprove a license application and may revoke, suspend, or amend an existing
      license whenever it deems “...such action to be in the furtherance of world peace, the
      national security or foreign policy of the United States, or is otherwise inadvisable...”2

          The AECA requires the development of “appropriate mechanisms” to identify
      persons and entities that are ineligible to receive an arms export license.3 It is for
      that purpose the Watchlist was created. The Watchlist is maintained by PM/DDTC
      compliance specialists, who draw from intelligence, law enforcement, and open
      source information. While some entries, such as criminal violations of the AECA,
      are clearly determinative as to whether or not an export license will be approved,
      other entries are more of an informative nature, leaving to the licensing ofﬁcer’s
      discretion whether or not to approve the party’s license application.

          AEY, Inc., a Florida-based company founded in 1999, received its ﬁrst U.S.
      government contract in 2004. Since then the majority of its contracts and purchase
      orders have been with DOD and the Department for the procurement of weapons,
      ammunition, and other military equipment. In January 2007, the U.S. Army awarded
      AEY a $300 million contract to supply ammunition to Afghan Security Forces. In
      May 2008, after payments of $66 million, the Army terminated the contract for
      cause. In June 2008, a federal grand jury indicted AEY and individuals associated
      with the company on criminal charges arising from the company’s purchase of am-
      munition under the contract.




      2
       22 U.S.C. § 2778 (g) (1).
      3
       Ibid.


OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   5 .


                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED




                  On June 24, 2008, the U.S. House of Representatives, Committee on Oversight
              and Government Reform, conducted a hearing to examine AEY contracts with the
              U.S. government. The hearing addressed the failures by AEY to provide weapons
              and ammunition under contracts to the U.S. government and the deﬁciencies within
              the government that allowed AEY to be awarded these and other contracts. Among
              the noted deﬁciencies was the U.S. Army’s failure to check AEY against the Depart-
              ment’s defense export licensing Watchlist prior to awarding the $300 million contract
              to supply ammunition to Afghan Security Forces.




6 . OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008


                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED





                                                  FINDINGS


      Use of the Watchlist

           Paramount to understanding the Department’s use of its defense export licens-
      ing Watchlist is understanding what the Watchlist is and what it is not. Its purpose
      is to alert licensing ofﬁcers and compliance specialists within PM/DDTC regarding
      potential concerns when reviewing a party’s application for an arms export license.
      According to PM ofﬁcials, all export license applications are screened against it. The
      broad range of information contained in the Watchlist, some of which is derived
      from classiﬁed sources, reﬂects the wide latitude given to licensing ofﬁcers in grant-
      ing or denying a license application. But with the exception of certain determinative
      information that legally bars the issuance of a defense trade license, the presence of
      a person or organization on the Watchlist does not automatically result in a denial of
      the license application.

          Ofﬁcials from A/LM/AQM stated that their contracting ofﬁcers currently do
      not use the Watchlist in determining the awarding of contracts or the issuance of
      purchase orders, as much of the information in the Watchlist does not relate to
      contract performance and, as such, it is ill-suited for use in the acquisition process.
      Information on the Watchlist that would be determinative in the awarding of a con-
      tract or the issuance of a purchase order, such as a company’s listing on the General
      Service’s Administration’s (GSA) Excluded Parties List (EPLS), is available from
      other sources, which are used by A/LM/AQM’s contracting ofﬁcers.




OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   7 .


                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                  It would appear that the Watchlist and the arms export licensing process could
              be used to indirectly control those contracts and purchase orders that involve the ex-
              port of arms and munitions by denying the arms export license, thereby preventing
              the contractor from meeting the terms of the contract or purchase order. But this
              was found not to be the case. Of the 39 purchase orders the Department4 issued to
              AEY during ﬁscal years 2004 through 2007 for arms and munitions, the OIG team
              found only one purchase order that contained a requirement for the vendor to obtain
              an export license. The majority of the purchase orders that showed a foreign coun-
              try as the ﬁnal destination did not specify shipment to the foreign destination, but
              instead required shipment to a domestic U.S. government location, presumably for
              transshipment by the U.S. government.

                  In response to the June 24, 2008, Committee on Oversight and Government Re-
              form hearing regarding AEY and its contracts with the U.S. government, representa-
              tives from PM/DDTC have been meeting with DOD acquisition experts to develop
              contract clause language that would allow the use of Watchlist information in the
              acquisition process. The contract clauses being discussed would potentially give U.S.
              government acquisition ofﬁcials greater insight into and leverage over contractors
              that run afoul of export laws and regulations. If this effort is successful, the results
              may be useable for the Department’s acquisitions.

              AEY Arms Export Licenses and Department Contracts

                  Between January 2005 and March 2008 AEY submitted 28 arms export license
              applications, of which 19 were approved. Two of the approved licenses were subse-
              quently revoked, one of which was reapproved after being resubmitted. Five license
              applications were returned without action, which is typical when the application
              contains administrative errors, and four license applications were rejected. Accord-
              ing to PM ofﬁcials, each of these applications was carefully reviewed, vetted with
              appropriate law enforcement ofﬁcials, and checked against the Watchlist. The OIG
              team conﬁrmed, as was reported, that AEY and many of its key ofﬁcers are on the
              Watchlist. As noted above, only one of the 28 arms export license applications that
              AEY submitted, one of the approved applications, was for a Department purchase
              order.




              4
               "Department" for the purposes of this review is intended to mean all foreign and domestic De-
              partment of State facilities, including all overseas posts.



8 . OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008


                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



          During ﬁscal years 2004 through 2007, the Department issued 39 purchase
      orders to AEY for arms and munitions, totaling approximately $ 5.9 million. Of
      these 39 purchase orders, one was cancelled and another was partially cancelled.

          Of these 39 purchase orders, 27 were awarded through the FedBid “reverse
      auction” process. FedBid is operated by a privately owned company whose primary
      focus is public-sector procurement ofﬁcials. FedBid is contracted through GSA.
      Through this on-line process, procurement ofﬁcials articulate their need for services
      or products and bidders offer their lowest price or best value for these products or
      services.

          Among the features of FedBid is the ability for procurement ofﬁcials to ﬂag
      poorly performing vendors. In February 2006, AEY was ﬂagged by the Department
      for its inability to deliver according to its bid speciﬁcations, and as a result, activity
      with AEY was temporarily suspended. Activity with AEY was reactivated in March
      2006 following discussions between Department and company ofﬁcials regarding
      the need to improve the company’s business practices. AEY was again ﬂagged in
      November 2006, whereupon A/LM/AQM acquisition ofﬁcials ceased issuing new
      purchases to the company5. In April 2008 AEY was posted on the EPLS, thereby
      prohibiting it from contracting with any federal agency, by the DOD, based upon ev-
      idence that AEY had illegally purchased ammunition for an Afghan Security Forces
      contract and had made false or misleading statements concerning this ammunition.




      5
       A/LM/AQM issued a modiﬁcation to existing purchase order in February 2007 and a second
      modiﬁcation to the same purchase order in March 2007, partially canceling the original purchase
      order.



OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   9 .


                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




                   It is the opinion of the OIG team that A/LM/AQM acted judiciously in identi-
               fying and ﬂagging AEY’s poor performance and in ceasing activity with the company
               when it was deemed necessary. It should be noted, however, that between Novem-
               ber 2006, when A/LM/AQM ceased activity with AEY, and April 2008, when AEY
               was posted on the EPLS, two purchase orders were issued to AEY by overseas posts
               outside the FedBid process. One was issued in February 2007, and the other was
               issued in June 2007. A review of the process that allowed these purchase orders to
               be issued after A/LM/AQM ceased activity with AEY is beyond the scope of this
               review, but may warrant a subsequent OIG review.

                    A summary of key events pertaining to AEY is provided in Table 1.

              Date                      Event
               January 12, 2005         AEY registers with PM/DDTC as an exporter.
               January 13, 2005         AEY is entered into the Watchlist for law enforcement reasons.
               February 2006            AEY is flagged on FedBid; activity with Department is suspended.
               March 2006               Activity with Department is reactivated after conversation with
                                        AEY senior official.
               November 2006            AEY is flagged on FedBid. A/LM/AQM cancels a previously issued
                                        purchase order and ceases issuing any new purchase orders to AEY.
               March 2008               AEY is debarred by the U.S. Department of the Army.
               April 2008               AEY is put on the EPLS.

              Table 1 - Key Events Pertaining to AEY




10 . OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008


                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED





                                         ABBREVIATIONS


      A                                 Bureau of Administration
      AECA                              Arms Export Control Act
      A/LM/AQM                          Ofﬁce of Acquisitions Management
      EPLS                              Excluded Parties List System
      GSA                               U.S. General Services Administration
      PM                                Bureau of Political-Military Affairs
      PM/DDTC                           Directorate of Defense Trade Controls




OIG Rpt. No. SIA-I-08-05, Rev. of Dept’s Use of Defense Export Licensing Watchlist in the Acquisition Process - Sept. 2008   11 .


                                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

